BRIAN E. FROSH
Attorney General

ELIZABETH F. HARRIS
Chief Deputy Attorney General
CAROLYN QUATTROCKI
Deputy Attorney General

STATE OF MARYLAND

OFFICE OF THE ATTORNEY GENERAL
FACSIMILE NO.

WRITER’S DIRECT DIAL NO.

(410) 576-6475

(410) 576-6422

August 30, 2021
Scott S. Harris, Clerk
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543
RE:

Benjamin Caleb Trott v. Maryland, Docket No. 21-287

Dear Mr. Harris:
Our office recently became aware of a petition for a writ of certiorari filed in this
case on August 26, 2021. Please be advised that, unless the Court orders otherwise, we do
not intend to respond to the petition.
Attached is the waiver and appearance form to be filed on behalf of the Respondent.
Sincerely,
/s/ Daniel J. Jawor
Daniel J. Jawor
Division Chief
Criminal Appeals Division
DJJ:jlc

200 Saint Paul Place ❖ Baltimore, Maryland, 21202-2021
Main Office (410) 576-6300 ❖ Main Office Toll Free (888) 743-0023
Consumer Complaints and Inquiries (410) 528-8662 ❖ Health Advocacy Unit/Billing Complaints (410) 528-1840
Health Advocacy Unit Toll Free (877) 261-8807 ❖ Homebuilders Division Toll Free (877) 259-4525 ❖ Telephone for Deaf (410) 576-6372
www.marylandattorneygeneral.gov

Scott S. Harris, Clerk
August 30, 2021
Page 2
CC:

Jeffrey M. Ross
Assistant Public Defender
Office of the Public Defender
Appellate Division
6 Saint Paul Street, Suite 1302
Baltimore, MD 21202

Our File: CA19-2882

